UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-2882
Reproductive Health Services of Planned Parenthood of the St. Louis Region, Inc., on behalf of
itself, its physicians, its staff, and its patients and DO, MSCI, FACOG Colleen P. McNicholas,
on behalf of herself and her patients
Appellees
v.
Michael L. Parson, in his official capacity as Governor of the State of Missouri and Eric Stephen
Schmitt, in his official capacity as Attorney General of the State of Missouri
Appellants
Kimberly Gardner, in her official capacity as the Circuit Attorney for the City of St. Louis
MD Jade D. James, in her official capacity as President of the Missouri State Board of
Registration for the Healing Arts, et al.
Appellants

Alliance Defending Freedom
Amicus on Behalf of Appellant(s)
Constitutional Law Scholars, et al.
Amici on Behalf of Appellee(s)
No: 19-3134
Reproductive Health Services of Planned Parenthood of the St. Louis Region, Inc., on behalf of
itself, its physicians, its staff, and its patients and DO, MSCI, FACOG Colleen P. McNicholas,
on behalf of herself and her patients
Appellees
v.
Michael L. Parson, in his official capacity as Governor of the State of Missouri and. Eric Stephen
Schmitt, in his official capacity as Attorney General of the State of Missouri
Appellants

Appellate Case: 19-2882 Page: 1

Date Filed: 07/13/2021 Entry ID: 5054005

Kimberly Gardner, in her official capacity as the Circuit Attorney for the City of St. Louis
MD Jade D. James, in her official capacity as President of the Missouri State Board of
Registration for the Healing Arts, et al.
Appellants

Alliance Defending Freedom
Amicus on Behalf of Appellant(s)
Constitutional Law Scholars, et al.
Amici on Behalf of Appellee(s)

Appeals from U.S. District Court for the Western District of Missouri - Jefferson City
(2:19-cv-04155-BP)

ORDER
On the court's own motion, rehearing en banc is granted. Judge Colloton did not
participate in the consideration or decision of this matter. The opinion and judgment dated June
9, 2021 are hereby vacated. These cases will be placed on a calendar for oral argument. Counsel
will be notified at a later date of the exact date and time of argument. Counsel shall, within ten
days, submit 30 additional copies of previously filed briefs and 8 additional copies of the
appendix. Additional briefs for rehearing due on 07/23/2021.

July 13, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 19-2882 Page: 2

Date Filed: 07/13/2021 Entry ID: 5054005

